TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Efforts to Prevent Improper Tax Benefits
                 Resulting From Multiple Uses of Taxpayer
                 Identification Numbers Can Be Improved



                                     November 2005

                          Reference Number: 2006-40-007




       The Treasury Inspector General for Tax Administration (TIGTA) has designated
       this audit report as Limited Official Use (LOU) pursuant to Chapter III, Section 2
       of the Treasury Security Manual (TD P 71-10) entitled, “Limited Official Use
       Information and Other Legends.” Because this document has been designated
       LOU, it may only be made available to those officials that have a need to know the
       information contained within this report in the performance of their official duties.
       This report must be safeguarded and protected from unauthorized disclosure;
       therefore, all requests for disclosure of this report must be referred to the Disclosure
       Section within the TIGTA’s Office of Chief Counsel.




                                    Limited Official Use


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         Limited Official Use
              Efforts to Prevent Improper Tax Benefits Resulting From Multiple
                 Uses of Taxpayer Identification Numbers Can Be Improved


                                                                              Appendix II

                 Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Acting Assistant Inspector General for Audit (Wage and Investment
Income Programs)
Kyle R. Andersen, Acting Director
Deann L. Baiza, Audit Manager
Karen C. Fulte, Lead Auditor
Linda L. Bryant, Senior Auditor
John Kirschner, Senior Auditor
Sharla J. Robinson, Senior Auditor
Sandra L. Hinton, Auditor
Arlene Feskanich, Information Technology Specialist




                                Limited Official Use                           Page 1
